No. 20-1383

In the Supreme Court of the United States
ARTHUR DIAMOND, ET AL.
Petitioners
v.
PENNSYLVANIA STATE EDUCATION ASSOCIATION, ET AL.
Respondents
CERTIFICATE OF COMPLIANCE
I hereby certify that the Commonwealth’s Brief in Opposition to the Petition
for Writ of Certiorari in the above case contains 3,910 words within the meaning of
Sup. Ct. R. 33.1. In making this certificate, I have relied on the word count of the
word-processing system used to prepare the document, and I am a member of the bar
of the Court. A copy of this certificate has been served on counsel for all parties.

s/ J. Bart DeLone
J. BART DELONE
Chief Deputy Attorney General
Dated: May 10, 2021

